                                     OFFICE OF INSPECTOR GENERAL
                                        Washington, DC 20268-0001


October 31, 2007



The Honorable Dan G. Blair
Chairman
Postal Regulatory Commission
901 New York Avenue NW, Suite 200
Washington, DC 20268-0001

Dear Chairman Blair,

I am pleased to enclose the Office of Inspector General’s first Semiannual Report to
Congress.

This report covers audits, investigations and other reviews conducted by the Office of
Inspector General from its establishment in late June, 2007 through September 30, 2007.

In accordance with Section 5(b) the Inspector General Act of 1978, please transmit this
report along with the Postal Regulatory Commission’s report on audit recommendations
along with any comments you may have, to the appropriate House and Senate Committees
by November 30, 2007.

I greatly appreciate all of the assistance you, the Commissioners, and the Commission’s
staff have provided in establishing the Office of Inspector General. I look forward to
continue working with you to improve Commission operations in the future.

Sincerely,
Digitally signed by Jack Callender
DN: cn=Jack Callender, o=PRC,
ou=OIG, email=prc-ig@prc.gov, c=US


Jack Callender
Inspector General




901 New York Avenue • Suite 230 • (202) 789-6817 • prc-ig@prc.gov
POSTAL REGULATORY COMMISSION

 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS



 Period Ending September 30, 2007
                    TABLE OF CONTENTS
                                                PAGE

INTRODUCTION                                     2

ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL    3

INSPECTOR GENERAL ACT REPORTS                    5

CONTACT INFORMATION                              8




                                       i
INTRODUCTION
The Postal Regulatory Commission

The Postal Regulatory Commission is an independent federal agency established (as the
Postal Rate Commission) by the Postal Reorganization Act of 1970. From its
establishment through the enactment of the Postal Accountability and Enhancement Act
(PAEA) of 2006, the Commission primarily received United States Postal Service
proposals for domestic mail rates and classifications, presided over litigation regarding
those proposals, and recommended rates and classifications to the Board of Governors of
the United States Postal Service. PAEA, which was enacted on December 20, 2006,
re-designated the Commission, expanded the Commission’s jurisdiction to include
international mail and service standards, and charged the Commission with implementing
a new system of postal rate regulation.

During the reporting period, the Commission’s transition was ongoing. Remarkably, the
Commission published a notice of proposed rulemaking on a large portion of the new
ratemaking system on August 15, 2007, ten months before the deadline for final rules set
by the PAEA. At the same time, the Commission continued to process cases filed under
the old law, including six pending mail classification cases.

The Postal Regulatory Commission consists of five Commissioners who are appointed
for six year terms by the President, with the advice and consent of the Senate. No more
than three of the Commissioners can be members of the same political party. The
President designates one of the Commissioners to serve as Chairman, and the
Commissioners, by majority vote, select one Commissioner to serve as Vice Chairman.

The Office of Inspector General
The Commission established the Office of Inspector General (OIG) on June 15, 2007 and
hired the first Inspector General on June 23, 2007. During the reporting period, OIG had
one permanent full time employee (the Inspector General), one auditor on detail from the
United States Postal Service Office of Inspector General, and received administrative
support from the Commission’s Office of Consumer Advocate.




                                            2
ACTIVITIES OF THE OFFICE OF INSPECTOR
GENERAL
Audit Activities

Under the Inspector General Act of 1978 as amended, the Inspector General provides
policy direction and conducts, supervises and coordinates audits relating to programs and
operations of the Postal Regulatory Commission.

During the reporting period, OIG initiated an audit of the Commission’s information
security governance and planning. This audit was still ongoing at the close of the
reporting period.


Investigative Activities

Under the Inspector General Act, OIG receives and investigates allegations of fraud
waste, abuse or misconduct within Postal Regulatory Commission programs and
operations. OIG investigations can give rise to administrative, civil and criminal
penalties.

In order to facilitate reporting of allegations, OIG maintains a hotline (see “Contact
Information,” Page 8).

During the reporting period, OIG received four hotline contacts, all via electronic mail.
Of these, two were referred to the Postal Service Office of Inspector General, one was
referred to the Department of Veterans Affairs Office of Inspector General, and one was
referred to the Postal Inspection Service.




                                             3
Other Activities
Regulatory Review

During the reporting period, OIG reviewed drafts of proposed Postal Regulatory
Commission rules and notices. The OIG provided comments regarding draft proposed
regulations to establish a system of ratemaking for market dominant products (Order No.
26, Docket No. RM2007-1) as well as draft revisions to the Commission’s email policy.

Liaison Activities

The Inspector General is a member of the Executive Council on Integrity and Efficiency,
which consists primarily of IGs established under section 8(G) of the IG Act. During the
reporting period, the Inspector General attended four meetings of the Council, including a
joint meeting with the President’s Council on Integrity and Efficiency. OIG has also
coordinated its activities with the Government Accountability Office.

Inspection and Evaluation

OIG initiated reviews of several aspects of ratemaking under the Postal Reorganization
Act of 1970. This work was still ongoing at the close of the reporting period.

OIG also participated in the Postal Regulatory Commission’s Fiscal Year 2007 report
under the Federal Information Security Management Act (Title III of Public Law 107-
347).




                                            4
INSPECTOR GENERAL ACT REPORTS
Section 5(a) of the Inspector General Act requires the following information to be
included in semiannual reports.

5(a)(1)        Significant problems, abuses or deficiencies identified
               OIG issued no final audit reports through September 30, 2007.

5(a)(2)        Recommendations for corrective action
               OIG issued no final audit reports through September 30, 2007.

5(a)(3)        Open recommendations from previous semiannual reports
               OIG was established during the period covered by this report.

5(a)(4)        Matters referred to prosecutors, disposition
               None.

5(a)(5)        Reports of information or assistance unreasonably withheld
               None.

5(a)(6)        Listing by subject of audit reports issued
               OIG issued no final audit reports through September 30, 2007.

5(a)(7)        Summary of particularly significant reports
               OIG issued no final audit reports through September 30, 2007.

5(a)(8)        Statistical table – questioned costs
               Table I

5(a)(9)        Statistical table – recommendations that funds be put to better use
               Table II

5(a)(10)       Audit reports from prior reporting periods for which no management
               decision had been made
               OIG was established during the period covered by this report.

5(a)(11)       Significant revised management decisions
               OIG issued no final audit reports through September 30, 2007.

5(a)(12)       Significant management decisions with which the IG is in disagreement
               OIG issued no final audit reports through September 30, 2007.

5(a)(13)       Information under section 05(b) of the FFMIA
               None.




                                             5
Table I – Audit reports with questioned costs


                 Number of         Number of       Questioned   Unsupported
                 Reports           Recommendations Costs        Costs
  A. For which 0                   0               $0           $0
no management
    decision has
  been made by
             the
commencement
of the reporting
          period
B. Which were 0                    0               $0           $0
  issued during
   the reporting
          period
       Subtotals 0                 0               $0           $0
          (A+B)
C. For which a 0                   0               $0           $0
   management
   decision was
   made during
   the reporting
          period
  D. For which 0                   0               $0           $0
no management
    decision has
  been made by
  the end of the
       reporting
          period
  E. For which 0                   0               $0           $0
no management
   decision was
made within six
      months of
        issuance




                                            6
Table II – Audit reports with recommendations that funds be put to better use

                       Number of Reports        Number of           Dollar Value
                                                Recommendations
A. For which no        0                        0                   $0
management
decision has been
made by the
commencement of
the reporting period
B. Which were          0                        0                   $0
issued during the
reporting period
Subtotals (A+B)        0                        0                   $0
C. For which a         0                        0                   $0
management
decision was made
during the reporting
period
D. For which no        0                        0                   $0
management
decision has been
made by the end of
the reporting period
E. For which no        0                        0                   $0
management
decision was made
within six months of
issuance




                                            7
CONTACT INFORMATION
In our mission to detect and prevent waste, fraud and abuse and to promote efficiency and
economy, OIG relies on information provided by PRC staff and the general public.


By telephone:

(202) 789-6817

By mail:

901 New York Avenue, Suite 230
Washington, DC 20268-0001

By electronic mail:

PRC-IG@prc.gov




                                           8
